                       U.S. DEPARTMENT OF ENERGY
                      OFFICE OF INSPECTOR GENERAL


                                  AUDIT OF

                 DEPARTMENTAL INTEGRATED STANDARDIZED

           CORE ACCOUNTING SYSTEM (DISCAS) OPERATIONS

                        AT SELECTED FIELD SITES


The Office of Inspector General wants to make the
distribution of its reports as customer friendly and cost
effective as possible. Therefore, this report will be
available electronically through the Internet five to seven
days after publication at the following alternative
addresses:


            Department of Energy Headquarters Gopher
                     gopher.hr.doe.gov

        Department of Energy Headquarters Anonymous FTP
                    vm1.hqadmin.doe.gov

        U.S. Department of Energy Human Resources and
                    Administration Home Page
                   http://www.hr.doe.gov/ig

Your comments would be appreciated and can be provided on
the Customer Response Form attached to the report.


This report can be obtained from the
U.S. Department of Energy
Office of Scientific and Technical Information
P.O. Box 62
Oak Ridge, Tennessee 37831


Report Number:     AP-FS-97-02        ADP and Technical Support Division
Date of Issue:     June 6, 1997       Washington, D.C. 20585



          AUDIT OF DEPARTMENTAL INTEGRATED STANDARDIZED
           CORE ACCOUNTING SYSTEM (DISCAS) OPERATIONS
                     AT SELECTED FIELD SITES


                           TABLE OF CONTENTS

                                                              Page
           SUMMARY   . . . . . . . . . . . . . . . . . .   1

PART I   - APPROACH AND OVERVIEW . . . . . . . . . . .     2

           Introduction. . . . . . . . . . . . . . . .     2

           Scope and Methodology . . . . . . . . . . .     2

           Background . . . . . . . . . . . . . . . . .    2

           Observations. . . . . . . . . . . . . . . .     3

PART II - AUDIT RESULTS . . . . . . . . . . . . . . .      5

           General Control Environment for DISCAS
           Operations . . . . . . . . . . . . . . . . .    5

           Application Controls for DISCAS
           Operations . . . .. . . . . . . . . . . . .     7
                    U.S. DEPARTMENT OF ENERGY
                   OFFICE OF INSPECTOR GENERAL
                    OFFICE OF AUDIT SERVICES


          AUDIT OF DEPARTMENTAL INTEGRATED STANDARDIZED
           CORE ACCOUNTING SYSTEM (DISCAS) OPERATIONS
                     AT SELECTED FIELD SITES


Audit Report Number:   AP-FS-97-02

                              SUMMARY

     The Government Management Reform Act of 1994 requires the
Department to annually submit audited financial statements to the
Office of Management and Budget beginning with the statements to
be issued as of September 30, 1996. As part of a Department-wide
financial statements audit, we reviewed operations and internal
controls at selected field sites in order to assess the integrity
and reliability of financial data processed through the
Departmental Integrated Standardized Core Accounting System
(DISCAS). Our primary emphasis was placed on reviewing the
general control environment in which DISCAS operates to ensure
that application controls could not be rendered ineffective by
circumvention or modification. We also performed limited tests
of application controls and data integrity to assist us in
assessing the validity and reliability of data processed through
DISCAS.

     This report addresses certain matters involving the design
and operations of DISCAS that could affect the Department's
ability to ensure that financial data is recorded, processed, and
reported in a reliable manner. Specifically, at the three field
sites audited, some weaknesses exist in the general and
application controls for DISCAS that could affect the reliability
of data processed through the system. However, nothing came to
our attention that causes us to believe that the system would
introduce significant distortions into the Department's financial
statements.

     Management concurred with our findings and recommendations.
Management's comments are summarized in Part II of this report.


                                     ___________________________

                              PART I

                       APPROACH AND OVERVIEW


INTRODUCTION

     The Government Management Reform Act of 1994 requires the
Department to annually submit audited financial statements to the
Office of Management and Budget (OMB) beginning with the
statements to be issued as of September 30, 1996. As part of a
Department-wide financial statements audit, we reviewed
operations and internal controls at selected field sites in order
to assess the integrity and reliability of financial data
processed through the Departmental Integrated Standardized Core
Accounting System (DISCAS).

SCOPE AND METHODOLOGY

     Our primary emphasis was placed on reviewing the general
control environment in which DISCAS operates to ensure that
application controls could not be rendered ineffective by
circumvention or modification. We also performed limited tests
of application controls and data integrity to assist us in
assessing the validity and reliability of data processed through
DISCAS.
     Our audit was primarily conducted at the Oak Ridge Financial
Management Division, Oak Ridge, Tennessee; the Albuquerque
Financial Service Center, Albuquerque, New Mexico; the Capital
Accounting Center, formerly the Office of Headquarters Accounting
Operations (OHAO); and the Headquarters Computing Facility,
Germantown, Maryland. Our audit work was initiated in May 1996,
and an exit conference was held with officials of the Office of
Chief Financial Officer (CFO) in March 1997.

     We obtained and reviewed system documentation, prior system
reviews, error (edit) reports and related reports and records.
We interviewed persons responsible for system design,
maintenance, and day-to-day operations, as well as system users.
In addition, we used both on-line access and computer assisted
audit techniques to assist in our understanding of the general
and application control environment in which DISCAS operates, and
observed the on-line processing of transactions to verify system
control and edit functions. We also compared system
characteristics and operating procedures with applicable laws,
regulations, and other requirements for Federal financial
management systems.

     Our audit was performed in accordance with generally
accepted Government auditing standards for financial audits.
This included tests of internal controls and compliance with laws
and regulations to the extent necessary to meet the objectives of
the audit. Because our review was limited, it would not
necessarily have disclosed all internal control deficiencies that
may exist. Also, projection of any evaluation of the structure
to future periods is subject to the risk that procedures may
become inadequate because of changes in conditions or that the
degree of compliance with the policies or procedures may
deteriorate.

BACKGROUND

     DISCAS, as an integral part of the Departmental Primary
Accounting System, was designed to provide DOE with a
standardized automated system that performs accounting and
financial reporting functions consistent with both internal and
external accounting policies and procedures, such as those
contained in the Department of Energy Accounting Handbook or
issued by external organizations such as the OMB, the General
Accounting Office (GAO), and the U.S. Treasury. It was designed
to perform such functions as funds control, voucher processing,
U.S. Treasury payment, accounts receivable, collections, cost
accruals and reversals, travel, year-end closing, reimbursable
work, and invoice logging and tracking. The system also
provides monthly consolidation data to the Financial Information
System (FIS) and/or Management Analysis Reporting System (MARS).

     In addition to FIS/MARS, the following application systems
also interface with DISCAS, either through batch processing or
menu options:

          Budget and Reporting Classification System.
          Funds Distribution System (FDS).
          Labor Distribution System.
          Payroll/Personnel System.
          Procurement and Assistance Data System.

     DISCAS is intended to operate as an on-line, fully
interactive, Agency-level accounting system that uses standard
hardware and software. The system contains eight modules,
including budget and accounting. It operates on Hewlett-Packard
(HP) 3000 Series computers, located at DOE Headquarters and field
sites. DISCAS source programs, written in HP COBOL II, are pro
vided to each site running the software. The Financial Systems
Development Division (FSDD)--located within the Office of
Departmental Accounting and Financial Systems Development, CFO--
is responsible for central management of the system.

     As of the end of Fiscal Year 1996, the system was in
operation at 4 DOE sites with HP computers, and was being
utilized by 18 different DOE organizations. The system is
currently operational at the DOE Albuquerque and Oak Ridge
Operations Offices, the Federal Energy Regulatory Commission and
the OHAO. The Idaho, Nevada, and Oakland Operations Offices are
operational on the Albuquerque system. The Savannah River
Operations Office, Richland Operations Office, Pittsburgh Energy
Technology Center, Rocky Flats Field Office, Ohio Field Office,
the Morgantown Energy Technology Center, and the Strategic
Petroleum Reserve Project Office are operational on the Oak
Ridge system; and Pittsburgh and Schenectady Naval Reactors, the
Chicago Operations Office and the Departmental Accounting and
Analysis Division, within the Office of Departmental Accounting
and Financial Systems Development, utilize the OHAO system.
Also, DISCAS is not utilized at the Department's Power Marketing
Administrations.

OBSERVATIONS

     This report addresses certain matters involving the design
and operations of DISCAS that could affect the Department's
ability to ensure that financial data is recorded, processed, and
reported in a reliable manner. Specifically, some weaknesses
exist in the general and application controls for DISCAS that
could affect the reliability of data processed through the
system. Instances were found where general controls relating to
the separation of duties; software changes; access; and
contingency and disaster recovery planning were not implemented
in a manner to ensure that information resources were
sufficiently safeguarded, and essential operations could be
continued in case of an unexpected interruption. Also, instances
were found where application controls relating to validator
program operation and difference resolution; and non-posting or
invalid transaction documentation were not implemented in a
manner to ensure sufficient control over the input and processing
of data.

     Overall, we do not believe that any of the     conditions at the
field sites audited would introduce significant     distortion into
the Department s financial statements. Because      our review was
limited, however, it would not necessarily have     disclosed all
internal control deficiencies that may exist.

     Part II of this report provides additional details
concerning the audit results.


                                 PART II

                              AUDIT RESULTS


     The following issues regarding the design and internal
control structure for DISCAS were identified during the course of
the audit and brought to management's attention.

1.       General Control Environment for DISCAS Operations.

     General controls apply to all computer processing carried
out at a facility and are independent of specific applications.
They relate to organization; system design, development and
modification; and security. Weaknesses exist in the general
controls for DISCAS that could affect the reliability of data
processed through DISCAS. At the three sites established in the
Department as consolidated service centers for DISCAS operations,
we found instances where general controls were not implemented in
a manner to ensure that information resources were sufficiently
safeguarded, and essential operations could be continued in case
of an unexpected interruption. Specifically, our review
disclosed the following:

     o   Certain organizational responsibilities and functions
         surrounding DISCAS, such as application system operation/security
         and payment and certification, were inadequately separated. For
         instance, site personnel with capabilities for establishing
         application access privileges also had capability to alter
         financial information. Also, a computer system manager at one
         site was also responsible for computer system security.

     o   Each site had access to DISCAS source code and could
         introduce changes into the system that were not approved and
    documented in accordance with formal change control procedures.
    From reports generated through the use of computer program
    comparison software, we found instances of missing, excessive
    and/or unapproved altered DISCAS core program source code in the
    production accounts for the sites.

o   Continuity of operations for performing mission requirements
    would be uncertain in event of non-availability of the site
    computer systems due to a major service disruption or disaster.
    At one site, no contingency agreement existed for an alternate
    processing facility (i.e., hot site). At another site, prior
    testing for contingency and disaster recovery disclosed that the
    alternate processing site may not have sufficient resources to
    meet processing needs.

o   Access to the computer and application systems was in excess
    and/or inconsistent with site user needs. Menu privileges were
    set up in the application system that allowed the same user to
    enter, validate and certify a payment transaction, and a large
    number of user accounts had never been logged into over a period
    of six months or more. Agencies are required to establish,
    evaluate, and maintain secure control environments for their
    financial management systems. For example, Appendix III to
    Title 2 "Accounting" of the GAO Policy and Procedures Manual
    for Guidance of Federal Agencies states that systems must
    include procedures and controls which protect hardware,
    software, data, and documentation from physical damage by
    accident, fire, and environmental hazards and
    from unauthorized access whether inadvertent or deliberate.

    These weaknesses, in our opinion, existed because the CFO
    had not (1) provided sufficient uniform guidance on formal
    procedural requirements for security controls relating to
    DISCAS operations; (2) performed recent reviews to assess
    the integrity and security of DISCAS programs and system
    structure; and (3) provided for overall contingency and
    disaster recovery planning to ensure continuity of DISCAS
    operations. Security of data and access to the data are
    relegated to the sites processing with the DISCAS application.
    However, the CFO established requirements for site maintenance
    of site security plans and provided general recommendations
    on computer security access controls. We found, in some
    instances, that formal procedures, at the sites, were outdated
    in certain aspects and/or did not address security controls
    relating to computer and application system operation, such
    as specific security software parameter settings for the
    computer system (e.g., automatic computer system log off
    of user after a period of inactivity), and application and
    computer system access control.

    Also, within the organizational structure established for
    DISCAS, organizational elements within the CFO had
    responsibility for application system software programming,
    analysis and change controls, and the performance of reviews
    to assess application security and the integrity of core
    software issued to the sites. However, a review to assess
    application integrity and security of DISCAS programs and
     system structure had not been performed by the CFO at the
     consolidated service centers since 1994.

     Improvements in the implementation of existing general
     controls will enable the CFO to better ensure that (1)
     financial data and programs are protected from unauthorized
     access, (2) application controls will not be rendered
     ineffective through circumvention or modification of
     the general controls, and (3) mission functions such as
     payment processing and financial information generation
     can be continued in event of a major service disruption
     or disaster. Our review, however, did not cause us to
     believe that these conditions at the sites distorted
     the results of information input or produced from the
     application system.

Recommendations

     We recommend that the CFO:

       1. Provide, through coordination with the consolidated
       service centers, uniform guidance on formal procedural
       requirements for security controls relating to DISCAS
       operations, to include items such as specific security
       software parameter settings, and application and computer
       system access control;

       2. Coordinate with the consolidated service centers on
       formal contingency and disaster recovery planning to
       ensure that the computer and DISCAS application systems
       are available when needed to perform mission functions;
       and

       3. Establish plans or procedures for conducting more
       frequent reviews to ensure the integrity and security of
       DISCAS programs and system structure.

Management Comments

     Management concurred with our finding and recommendations.

Auditor Comments

     Management's comment is responsive to our recommendations.

2.   Application Controls for DISCAS Operations.

     Application controls are those methods and procedures
designed for each application to ensure the authority of data
origination, the accuracy of data input, integrity of data
processing, and verification and distribution of output.
Weaknesses exist in the application controls for DISCAS that
could affect the reliability of data processed. At the three
sites established in the Department as consolidated service
centers for DISCAS operations, application controls related to
DISCAS operations were not implemented in a manner to ensure
sufficient control over the input and processing of data.
Specifically, our review disclosed the following:

  o   The DISCAS software contains validator programs that can be
      used for (1) performing comparisons or reconciliation between
      certain data elements across datasets (i.e., collection of data
      records or entries) in the system, (2) detecting instances where
      DISCAS files have not been completely processed, and (3) ensuring
      that entered transactions have been completely processed.
      However, certain core dataset validator programs in DISCAS were
      not operating properly. Sites reported, for instance, that a
      program comparing the trial balance dataset and a dataset
      maintaining totals for reimbursable activities did not execute
      properly (i.e., it ran in a continuous loop). Also, a program
      for ensuring consistency between the general ledger dataset, a
      summary dataset and a summary dataset maintaining totals by
      budget and reporting code reported differences because of
      comparison of a dissimilar data element (i.e., account code).

  o   Differences generated from core dataset validator programs
      were not being resolved on a regular basis by site personnel.
      For instance, at one site, a report comparing funding
      transactions and summary totals of payments by budget and
      reporting code for fiscal year 1996 identified 345 differences,
      such as unequal amounts and missing entries between the datasets,
      that had not been resolved.

  o   Review and disposition of non-posting or invalid
      transactions is not documented by site personnel to ensure
      ultimate transaction recording within the application system.
      Agencies are required to establish controls to provide
      reasonable assurance that the recording, processing, and
      reporting of data is properly performed within the framework
      of financial management systems. For example, Appendix III
      to Title 2 "Accounting" of the GAO Policy and Procedures Manual
      for Guidance of Federal Agencies prescribes that agency
      systems must contain internal controls which operate to
      prevent, detect, and correct errors and irregularities which
      may occur anywhere in the chain of events from transaction
      authorization to issuance of reports. The controls can be
      generally thought of as covering the functions of transaction
      authorization and approval, data preparation and validation,
      input, communications, processing, storage, output, error
      resolution and reentry of data, and file or data base
      quality maintenance.

      These weaknesses, in our opinion, existed because the CFO
      had not (1) provided sufficient uniform guidance on formal
      procedural requirements for application controls relating to
      certain DISCAS operations; and (2) corrected core DISCAS
      validator programs with problems. In addition, personnel at
      the sites advised that resolution of differences generated
      from core dataset validator programs overall had not been
      a priority.

      The CFO established requirements for site maintenance of
      formal procedures for DISCAS operations in general. However,
      formal procedures at the sites, either did not exist or did
     not address control for application system operations, such
     as review and resolution of non-posting or invalid transactions;
     and validator program execution, review and resolution.
     Without effective application controls for DISCAS, the CFO
     cannot ensure that all DOE organizations are consistently
     recording, processing, and reporting financial transactions
     and events throughout the Department.

Recommendations

     We recommend that the CFO:

       1. Provide, through coordination with the consolidated
       service centers, uniform guidance on formal procedural
       requirements for application controls relating to DISCAS
       operations, to include items such as non-posting or
       invalid transaction review and resolution, and validator
       program execution, review and resolution; and

       2. Initiate action to correct reported problems in
       DISCAS core validator programs.

Management Comments

     Management concurred with our finding and recommendations.

Auditor Comments

     Management's comment is responsive to our recommendations.

                                       IG Report No. AP-FS-97-02


                      CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in
improving the usefulness of its products. We wish to make our
reports as responsive as possible to our customers' requirements,
and therefore ask that you consider sharing your thoughts with
us. On the back of this form, you may suggest improvements to
enhance the effectiveness of future reports. Please include
answers to the following questions if they are applicable to you:

      1. What additional background information about the
     selection, scheduling, scope, or procedures of the audit or
     inspection would have been helpful to the reader in
     understanding this report?

      2. What additional information related to findings and
     recommendations could have been included in this report to
     assist management in implementing corrective actions?

      3. What format, stylistic, or organizational changes might
     have made this report's overall message more clear to the
     reader?

      4.   What additional actions could the Office of Inspector
     General have taken on the issues discussed in this report
     which would have been helpful?

Please include your name and telephone number so that we may
contact you should we have any questions about your comments.


Name_____________________________
Date______________________________

Telephone_________________________
Organization________________________

When you have completed this form, you may telefax it to the
Office of Inspector General at (202) 586-0948, or you may
mail it to:

               Office of Inspector General (IG-1)
               Department of Energy
               Washington, DC 20585
               Attn: Customer Relations

If you wish to discuss this report or your comments with a
staff member of the Office of Inspector General, please
contact Wilma Slaughter on (202) 586-1924.
